No. 19-880

In The
Supreme Court of the United States
Yisrael M. Kemp,
Petitoner,
Versus
Board of Regents of University System of Georgia.
Members, et. al.
Appellee - Defendant,
On The Petition for Rehearing Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit

PETITION REHEARING FOR WRIT OF
CERTIORARI

(s) Yisrael M.. Kemp
Pro—SeAttomey
P.O.Box 623
Atlanta, Ga 30301
Date: March 18 , 2020
(678) 826-6817

RECEIVED
MAR 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT, ti R

Table of Contents
Page
Table of Contents

i

Petition Rehearing for Writ of Certiorari

1-5

Appendix A .........................
Higher Education Act 1965
Three General Provision of
Title IV - Student Assistance

la

Board of Regents Overview: Exclusive Policy, Exercise

1

Rehearing Grounds and Issues to
The Supreme Court of United
States
The United States Constitution for “higher”
Education has incorporation grounds within and above
states constitution for an “higher” Education amendment,
to assist non-discrimination for petitioner (student) to
choose from various entry level classification in
respondent university system manual and undergraduate
catalogs for one's admission consideration.
Petitioner maintain the fourteenth amendment equal
protection clause and Title VI of the civil right act of 1964
for non-discrimination federal funded programs which
respondent violated within meaning of title VI of the civil
rights act of 1964,42USC 2000d-let.se for federal funded
programs non-discrimination and such claims 42USC
1981 for equal rights under law; and incurred 42USC
,1983, civil action for deprivation of rights.
Therefore, the Board of Regents of The University
System of Georgia manual should fully disclose and allow
in its institution catalogue general admission policy same
liberty and rights to admission, assisting various academic
entry level classification applicants and to include in
respondent manual a financial free (fees) tuition federal
assistance undergraduate program. (Writ of Certiorari,
Board of Regent Approve Manuel and Notification
Catalogue. Pg.68 Pg.69 and Rehearing Petition app.la
Higher Ed. Act of 1965, Provision. App.la Rehearing
Petition B.O.R. Exclusive Overview Policy) That’s
currently in several states, (citation omitted)

2

Petitioner rehearing review request has legal
standing for compliance from respondent not to
discriminate criteria during admission evaluation and to
complete its obligation of liberty and rights to (applicants)
students' undergraduate catalogue for an exclusive
approve authorization. (Writ of Cert. Pg.12-14)

\

Petitioner exercise choice entry level classification
non-traditional transfer and referred in the Georgia State
University catalogue as non-traditional. The lower court
agree, respondent was not in violation of their color of law
merit standard with the respondent admission evaluating
process of petitioner summer 2006 undergraduate
application (Pg. 7-9 of the report and recommendation
doc.74 and Pg. 13-14)
May judges grant review for issues and facts of
Board of Regents of University system of Georgia
(respondents'), General admission policy is refusing to
provide admission evaluation assistance for approving
many qualified applicate which has authorize meaning in
its equal opportunity policy for admission evaluation.
(Writ of Cert. Pg.58 equal opportunity policy and Pg.60
Requirement for undergraduate admission)
Respondent admission program for various types
academic applicate such as special (any) approve criteria
or high criteria applicate is not complying to fully disclose
of applicate entry level classification choice (liberty and
rights) for assisting admission evaluation consideration
(writ of certiorari Pg.65 Non-Traditional Transfer and
Pg. 72 Presidential Exception Policy)

3

Respondent admission evaluation two system
policy for higher and minimum application evaluation that
exercise wait list consideration for minimum standard
applicate, allow evaluation process to discriminate and
refuse assisting applicate full disclose entry level
classification choice. Is very reason respondent motive of
intent violation refusing petition choice of non-traditional
category (DOC.74P10, Writ Pg.54-55, Priority and
Regular)
The duties of the court's decision are not equally
protecting respondent board of regent's university system
manual, as well determine Georgia system institution
catalog are to maintain full disclosure entitlement and
liberty rights for prospective criteria applicate and high
criteria applicate (Rehearing app.la Exclusive) (Writ of
Cert, pg.6 DOC. 74, judge states GSU may exceed rule and
policy sent by Board of Regent)
Genuine Trial evidence continue with respondent's
institution responsibility policy use during admission
procedure to not note and not notify petitioner for adequate
standard guidelines to get necessary back ground check.
(Wit of Cert. Pg.71 Institutional Responsibility Policy and
Pg.46 Judge Martin States A Crime to See Dean of
Students)
February fourteen 2006, summer application stated
crime, name change of petitioner, yet respondents waited
until may 19, to inform one need FBI check and
respondent reason, may 19 to deny admission due to not
getting documents of background check (writ of certiorari
Pg.55 Judge Martin States Petitioner Had No Relevant
Information)

4

The Respondent institution responsibility policy is
not fully disclosing a normal procedure of applicates to
have state and federal background check if one has a crime
other than traffic citation. (Writ Pg.71&72 policy 411
GSU Responsibility)
Petitioner request for respondent full disclosure that
the review of supreme court of the united states decide the
lower court admittance of a background check institution
responsibility policy is not clearly being stated in
respondent's manual or its institutional catalogue.
(DOC.74 of R&R, Pg.6 and 7 M. Judge States Interview
with Dean for Crime, Other Than Traffic Violation)
Petitioner summer evaluation created an appeal to
respondent for improperly denying prose summer
application base upon academic matters incorrectly and
respondent gave incorrect reason of one Morris Brown
College transcript was erroneous (DOC.74 Pg.9 NonTraditional Transfer Rule Pg.12 Error of Transcript
Stated by Judge)
Respondent action for its uniform academic
calendar is same for 2006 and 2020, concerning
summer admission evaluation is until June, yet
respondent denied evaluation an withdrew summer
application in May.(writ pg.47&Pg.65)
Such action of respondent throughout its admission
evaluation not to act upon petitioner equal education
opportunity entitlement admission criteria, maintain in its
general admission policy discrimination and noncompliance of (prospective) students authorize approve
admission assistance and financial assistance to
encompass state wide acceptance of (applicate) students
for its university system (Writ Pg.45&58 RE. App.la )

5

Respondent action were entirely in line with
regular admission policy as court agreed Therefore
students {people) exclusive rights is its university
system catalogue from respondents to assist
applicates during admission evaluation for such
rights are important issues, {writ Pg.54 & Pg.58,
Rehearing app.la)
Students ( Applicate ) exclusive constitution and
civil rights entitlement complete assistance, review issues,
orders, In such cases as The Jennifer Johnson settlement
with Georgia University and Amy Fisher in the State of
Texas for percentage enrollment changes (citation omitted
), Petitioner equal education opportunity as respondent
address for particular entry level classification, is not
compliant for fully disclosure each priority & special entry
level classification in its institutional catalogue. Petitioner
is within laws, procedures of federal; statutes, of the
constitution of the United States for filing Rehearing Writ.
Therefore the Supreme Court of united states judge's
rehearing review for the united states constitution for an
equal higher education, admission evaluation entry level
classification for various academic applicates to maintain
compliance for non-discrimination is petitioner important
issues presented.

(s) Yisrael Kemp.
Pro se P.O.Box
623 Atl, Ga. 30301
Date: March 18.2020

Appendix A
la
Appendix A
HIGHER EDUCATION ACT OF 1965
THREE GENERAL PROUSIONS SECTION
Title IV— STUDENT ASSISTANCE
Part A- Grants to students in attendance at institution of higher
education
Sec. 400 [20 U.S.C. 1070] Statement of purpose; program
authorization
Sec. 484 [ 20 U.S.C 1091 ] Student Eligibility
Sec. 413c [ 20 U.S.C 1070b-2 ] agreements with institutions;
selection of recipients.

Board of Regents of the University System of Georgia Manuel,
Overview : Exclusive Policy

